<html>
<title> - ENVIRONMENTAL PROTECTION AGENCY FISCAL YEAR 2012 BUDGET</title>
<body><pre>[Senate Hearing 112-824]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 112-824

        ENVIRONMENTAL PROTECTION AGENCY FISCAL YEAR 2012 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://www.fdsys.gpo.gov






                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE

85-229 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 2, 2011
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......     5
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     5
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     6
Johanns, Hon. Mike, U.S. Senator from the State of Nebraska......     7
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     9
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    46

                                WITNESS

Jackson, Hon. Lisa, Administrator, U.S. Environmental Protection 
  Agency.........................................................    28
    Prepared statement...........................................    29

                          ADDITIONAL MATERIAL

Articles:
    USA Today, by Doyle Rice, Study debunks ``global cooling'' 
      concern of 1970s...........................................    12
    American Meteorological Society, by Thomas C. Peterson, 
      William M. Connolley and John Fleck, The Myth of the 1970s 
      Global Cooling Scientific Consensus, September 2008........    15
Letter from various colleagues, June 6, 2008.....................    52
Statement, Tom Curtis, deputy executive director for Government 
  Affairs, American Water Works Association......................    57

 
        ENVIRONMENTAL PROTECTION AGENCY FISCAL YEAR 2012 BUDGET

                              ----------                              


                        WEDNESDAY, MARCH 2, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Cardin, 
Sanders, Whitehouse, Udall, Barrasso, Johanns, Boozman.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. The hearing will come to order. We want to 
welcome Administrator Jackson to this oversight hearing on the 
2012 budget for the Environmental Protection Agency.
    The mission that EPA undertakes every day is critically 
important to our children, to our families and to our 
communities, large and small, all across America. It is a 
mission created with bipartisan support, and every time I talk 
about the landmark laws that are under attack, I point out that 
the major, major landmark environmental laws were signed by 
Richard Nixon, Gerald Ford, and George Herbert Walker Bush. I 
think it is important to remember that until recently we had 
very strong bipartisan support for these laws. Because the 
initial impetus for them was to keep our families healthy, in 
good shape, and keeping our air and water clean and safe.
    The President's budget recognizes the importance of EPA's 
mission and it is true that he reduced the EPA budget by more 
than $1.3 billion. It is a 13 percent reduction. But I respect 
the President's effort to cut the deficit during these tough 
times, but to do it responsibly.
    For example, the President's budget would make vital 
investments in enforcing our Nation's public health laws, 
including an agency-wide effort to reduce toxic pollution in 
at-risk communities, such as schools and other places where 
kids are exposed. I remember USA Today doing a major expose 
about the problem we are facing with our kids going to school 
in a situation where they are located near freeways and 
highways and railroad stops. Their lungs are suffering.
    The budget would also assist State and local efforts to 
reduce dangerous air pollution to begin the process of getting 
the Nation's largest emitters of carbon pollution to reduce 
their emissions. As we know, whether or not the EPA had a right 
to protect us from too much car pollution was decided by the 
Supreme Court. They said once there is an endangerment finding 
that they have the obligation to do so. That is what 
Administrator Jackson is planning to do.
    So even where the President's budget proposes to make cuts, 
such as reductions in Clean Water and Safe Drinking Water loan 
programs, it does it, I think, responsibly, after there was an 
uptick in those programs in previous years. But in stark 
contrast to the President's support for EPA's essential work to 
protect our kids and families, the recently passed House 
Continuing Resolution, not the short-term 2-week one, which I 
voted for, but the longer 7-month one, actually takes an axe to 
EPA. The largest cut of any agency, EPA gets a 30 percent cut.
    An astounding $2 billion from the Water Infrastructure and 
Water Quality Protection programs. These cuts mean that our 
drinking water has a far greater chance of contamination. These 
cuts means thousands of lost jobs. When I ran this last time, 
where are the jobs, that is all we heard, where are the jobs. I 
said, I am going to come back here and fight for jobs. I am not 
going to fight to see jobs lost.
    We are looking at, in that 7-month CR, a cut to clean up 
and redevelop brownfields. That law was passed under Republican 
leadership. It threatens, just that program, 5,000 jobs, just 
that program.
    The House budget would slash 45 percent from the 2010 
enacted level for Federal aid to State, local and tribal 
governments to protect our communities from dangerous 
pollution. It includes back door efforts to undermine EPA 
authorities that protect the air we breathe and the water we 
drink. There are riders on this. Not only do they cut to the 
heart of EPA, but then they tell Administrator Jackson, you 
can't cleanup the air, you can't cleanup soot or smog or carbon 
pollution. So it is legislating on an appropriations bill, it 
is attaching these riders. It is actually quite dangerous for 
the health of our communities.
    I want to close by saying, if you look at the cost benefit 
ratio of the Clean Air Act, it is $30 of benefits for every 
dollar invested. There is just a new report that shows the 
Clean Air Act prevented 160,000 cases of premature death, 
130,000 heart attacks, 13 million lost work days were 
prevented, and 1.7 million asthma attacks were prevented in 
2010 alone. That is from the Clean Air Act Amendments signed by 
George Herbert Walker Bush.
    So, look, we all know we are facing tough economic times. 
But tough times call for intelligent decisionmaking and wisdom, 
not reckless cuts that will do more harm than good. I have 
talked to doctors, I have talked to the American Lung 
Association. They believe strongly that these if cuts go 
forward, we are going to see premature death, we are going to 
see illness. We have to protect the health of our children 
while also building clean technology industries.
    This other point, since we passed the Clean Air Act, the 
U.S. GDP has risen by 207 percent. So there is all this talk 
that the environment and the economy are clashing. No, they 
don't. They work hand in glove. I always say if you can't 
breathe, you can't work. If you have a great operation but your 
people can't come to work because they are sick, you don't do 
very well.
    We are the world's largest producer and consumer of 
environmental technology. That industry has approximately 
119,000 firms, supports 1.7 million jobs, generates $300 
billion in revenues, including $43 billion in exports. Why 
would we take an axe to these industries? That is what we do, 
that is what the Republicans did in the House, I hope we won't 
in the Senate, for that 7-month Continuing Resolution.
    So the President's budget does make tough choices, his 2012 
budget. It is tough to cut, for me, a billion dollars out of 
EPA. That hurts my heart. But I am willing to go down that 
road, because it is a responsible cut. But the $3 billion cut 
just goes over the line. I thank you very much for being here 
and look forward to hearing from you.
    Senator Inhofe.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman. Administrator 
Jackson, nice to have you back, as always.
    I suspect these are tough times at the EPA for a number of 
reasons, because you are going to have to make some cuts. I 
think all Federal agencies are.
    I have to say this, in all due respect, instead of 
sacrifice, I am afraid the EPA's budget submission is yet 
another what I call a fiscal bait and switch. We have seen this 
before, going back to the Bush administration EPA. They propose 
significant cuts that appear fiscally responsible, but in truth 
they are cuts that the EPA knows that Congress will reinstate 
or restore. By my calculations, 83 percent of the EPA-proposed 
cuts come from three water programs with strong bipartisan 
support in Congress, including $942 million from the State 
Revolving Funds. The Chairman and I have been strong supporters 
of this. These cuts total $1.1 billion. EPA's overall cuts for 
Fiscal Year 2012 amount to $1.3 billion.
    So it is not hard to see the math here. You can bet these 
cuts will be restored. We have seen this over the years, I have 
seen it in other agencies. On Armed Services, I can remember 
when we were demanding some cuts there, so they said, fine, we 
will just take out the F-22 program and leave us without any 
fifth generation fighters.
    So that is something that has happened and I kind of call 
on your help to find cuts that are more responsible and more 
politically realistic. I can think of many programs that don't 
deserve the funding, certainly at the level, and No. 1 would 
be, and I am sure this is no surprise to you, the amount of 
money that we are spending on the greenhouse gas regulatory 
regime.
    I have to say, however, that due to existing greenhouse gas 
regulations, this is more complicated than it seems. The 
problem is that EPA, States and regulated entities have legal 
obligations stemming from the existing greenhouse gas 
regulations. We have to ensure, therefore, that our cuts don't 
have unintended consequences.
    The best way to eliminate EPA's carbon regime is through an 
authorization bill. That is why I released, in fact, we are 
going to be introducing it tomorrow, the Upton-Inhofe Bill, the 
Energy Tax Prevention Act of 2011. This bill puts Congress in 
charge of deciding our Nation's climate policy, not the EPA.
    So we are going to still continue to try to do that. If we 
want to make strides in improving public health, we won't do it 
by regulating carbon dioxide. When it comes to real pollution, 
such as sulfur dioxide and particulate matter, the EPA's budget 
falls short. For example, it zeroes out the funding for the 
Diesel Emissions Reduction Act, or DERA. This is a program with 
bipartisan support from me, from Chairman Boxer, from Senator 
Carper and from most of the Committee that we passed last year. 
It would help to reduce real pollutants, but the EPA has 
decided to spend it elsewhere. This is, in my opinion, 
irresponsible.
    Madam Administrator, I have said before, though we 
disagree, that I appreciate your leadership of the agency. You 
may have tough decisions ahead on ozone, PM dust, PM 10 dust, 
the Boiler MACT, Utility MACT, greenhouse gases. We put 
together, on the six major types of new regulations, what the 
cost is and what the job loss would be, and this country cannot 
afford it right now.
    So we will likely disagree on what you decide. But you have 
always been honest and straightforward with me, and I look 
forward to continuing our relationship through this 112th 
Congress.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Administrator Jackson, it is always good to see you. I suspect 
these are tough times at EPA, for a variety of reasons. The most 
obvious is the Nation's massive deficits and debt. If we want to 
eliminate them, Federal agencies must make meaningful fiscal 
sacrifices--and EPA is no exception.
    But Administrator Jackson--and I say this with all due respect--
instead of sacrifice, I'm afraid EPA's budget submission is yet another 
fiscal bait and switch.
    We've seen this before, going back to the Bush administration: EPA 
proposes significant cuts that appear fiscally responsible--but in 
truth they are cuts EPA knows Congress will readily restore.
    By my calculations, 83 percent of EPA's proposed cuts come from 
three water programs with strong bipartisan support in Congress, 
including $947 million from State Revolving Funds (SRF). These cuts 
total $1.1 billion. EPA's overall cuts for FY 2012 amount to $1.3 
billion. So it's not hard to see the math here.
    You can bet these cuts will be restored, because many of my 
colleagues believe these are worthwhile programs. For example, the SRF 
supports our Nation's infrastructure--an area where the Federal 
Government has a crucial role to play.
    Administrator, I call on you to help us find cuts that are more 
responsible--and more politically realistic. I can think of many 
programs that don't deserve funding. Item No. 1--and this should be no 
surprise--is EPA's greenhouse gas (GHG) regulatory regime.
    I must say, however, that, due to existing GHG regulations, this is 
more complicated than it seems. The problem is that EPA, states, and 
regulated entities have legal obligations stemming from existing GHG 
regulations. We have to ensure, therefore, that our cuts don't have 
unintended consequences.
    The best way to eliminate EPA's carbon regime is through an 
authorization bill. That's why I released the Energy Tax Prevention Act 
of 2011 with Rep. Fred Upton. This bill puts Congress in charge of 
deciding our Nation's climate change policy, not EPA bureaucrats. It 
will keep our focus on reducing real pollution, ensure people have 
jobs, and allow our economy to grow.
    If we want to make strides in improving public health, we won't do 
it by regulating carbon dioxide. It's not a pollutant--despite what EPA 
says. When it comes to real pollution, such as sulfur dioxide and 
particulate matter, EPA's budget falls short. For example, it 
eliminates funding for the Diesel Emission Reduction Act, or DERA. This 
is a program with bipartisan support--from me, Chairman Boxer, Sen. 
Carper, and others--that we passed last year. It would help reduce real 
pollutants, but EPA has decided to spend elsewhere. This is 
irresponsible and, if followed, bad for public health.
    Administrator, I've said this before: though we disagree, I 
appreciate your leadership at the Agency. You have tough decisions 
ahead on ozone, on PM dust, on Boiler MACT, on Utility MACT, on 
hydraulic fracturing, and on greenhouse gases. We will likely disagree 
on what you decide. But you have always been honest and straightforward 
with me. I look forward to continuing our relationship through the 
112th Congress.

    Senator Boxer. Thank you very much, Senator.
    Senator Udall, followed by Senator Barrasso.

STATEMENT OF HON. TOM UDALL, U.S. SENATOR FROM THE STATE OF NEW 
                             MEXICO

    Senator Udall. Thank you, Madam Chair. I appreciate your 
calling this hearing. I thank Administrator Jackson for being 
here today.
    The acts that you administer, the Clean Air Act, Clean 
Water Act, the Safe Water Drinking Act, are really the 
cornerstones, as you know, Administrator Jackson, of America's 
public health. Really, when you come before our Committee, you 
talk over and over again about public health. I think that is 
important, when we talk about your budget, that we realize that 
the public health is impacted when we talk about cutting your 
budget.
    EPA has a serious responsibility to implement these laws, 
these public health laws. Our Committee has an equally serious 
responsibility to oversee that implementation. These laws were 
passed with large, bipartisan majorities, and I believe they 
really have support all across America in terms of what you do 
on water and air and drinking water. Air and water pollution 
know no boundaries. They threaten us. When we protect the 
environment, we take these steps to protect ourselves and our 
children and future generations.
    The Chair has talked a little bit about your report. I am 
going to hopefully ask you, after we get through the opening 
statements, but certainly in questions, about this new report 
you put out. The figures are pretty remarkable in terms of 
money saved, deaths prevented, pollution abated, all of those 
kinds of things. So I am going to put the rest of my statement 
in the record, but I very much appreciate your being here and 
look forward to having you speak very soon.
    With that, Madam Chair, I yield back.
    Senator Boxer. Thank you, Senator.
    Senator Barrasso.

STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM THE STATE OF 
                            WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman. 
Welcome, Administrator Jackson.
    In an article today in Politico, entitled Does Industry Cry 
Wolf on Regs, you were quoted as saying, ``Today's forecasts of 
economic doom are nearly identical, almost word for word, to 
the doomsday predictions of the last 40 years.'' There is a 
picture of you today in Politico. It goes on, you are quoted as 
saying, ``This broken record continues, despite the fact that 
history has proven the doomsayers wrong again and again.''
    So I just want to explore that statement, Administrator 
Jackson. Forty years ago, and you talk about 40 years ago, the 
same scientists that are predicting the end of the world now 
from global warming were predicting the end of the world from 
global cooling. I have with me a number of articles that I 
collected when I was in college, Newsweek Magazine, The Cooling 
World. New York Times, A Major Cooling Widely Considered to be 
Inevitable. One from Time Magazine, Another Ice Age?
    So if we had committed the same amount of taxpayer 
resources and Government manpower that the Administration now 
wants us to commit to prevent global warming, had we done that 
to prevent global cooling, we would not be the most prosperous 
nation on earth. Advances in science and health care, diseases 
cured, children's lives saved, would not be the reality that we 
have had over those years. Millions of jobs would have 
needlessly been lost.
    The fact is that the same doomsday predictions from 40 
years ago is all we are getting from this agency and this 
Administration today. Only now, the problem, the Administration 
claims, is man-made global warming, not natural global warming, 
not mostly natural global warming, we are not quite sure to 
what extent it is all man-made, no, it is all man's fault. The 
Administration believes that the greatest environmental threat 
faced by man is ourselves, our past economic progress. This 
Administration intend to issue the greatest pile of regulations 
in the history of the Environmental Protection Agency and 
perhaps the United States to combat that threat.
    So as a result, the Administration seems to believe that 
all these new regulations on small and large businesses, during 
the worst economic recession in recent memory, will yield 
untold numbers of jobs and save millions of lives. Well, more 
regulations may result in more Government jobs, but not in more 
private sector jobs. That approach has failed time and time 
again, all over the world.
    The taxpayer resources that we will commit to regulating 
small and large business owners, based on these predictions of 
future impacts on land, water and air for global warming will 
harm businesses all across our country. This may be a 
regulator's dream, but it is a small business owner's 
nightmare. The small business owners can't question the 
predictions of those at the EPA on what will happen to their 
businesses in five or ten or 20 years from now, because by that 
time, by the time we reach the future 40 years from now, as you 
were quoting about 40 years in the past, and billions of 
taxpayer resources will have been spent, jobs will have been 
lost. This Administration will be long gone, having failed to 
focus on finding the right balance, the balance we need of 
energy security, environmental stewardship and economic growth.
    I look forward to the questions. Thank you, Madam Chairman.
    Senator Boxer. Thank you so very much.
    Now we will go to Senator Sanders.

STATEMENT OF HON. BERNARD SANDERS, U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Sanders. Thank you, Madam Chair, and Administrator 
Jackson, thanks for being with us.
    This is a critical time for the United States in so many 
ways, economically, our national debt, and environmentally. A 
sensible people and a sensible Government understand that we 
have to grow jobs in our economy. One way we do it is 
transforming our energy system. A sensible Government 
understands that we need to move our government toward a 
balanced budget, but not on the backs of children's health or 
the needs of working people at a time when the wealthiest 
people in this country have become wealthier and have received 
huge tax breaks.
    A sensible government understands that while Rush Limbaugh 
and Glenn Beck may have an opinion on global warming, that is 
not what the scientific community agrees with. The overwhelming 
consensus of the scientific community is in fact that global 
warming is real and in fact, that global warming is likely man-
made.
    Now, I am concerned that the House Republican bill, 
recently produced, would allow big polluters, some of the 
biggest polluters in America, to spew more carbon pollution and 
thousands of additional tons of hazardous toxins, such as 
mercury, into our air and our water. This is despite the fact 
that the Centers for Disease Control and Prevention have said 
that mercury pollution harms children through ``brain damage, 
blindness, seizures, inability to speak and kidney damage.'' Is 
that really the direction that we want to take America in the 
year 2011?
    The American Lung Association said the House Bill ``would 
result in millions of Americans being forced to breathe air 
that is unhealthy'' and that includes more than 12,000 children 
in Vermont with asthma. I go to schools in the State of 
Vermont. When you ever walk into a school, go to a nurse's 
office and they will talk to you about the number of kids in 
our State that are breathing crap in the air that is 
contributing to asthma. Do we really want to accelerate that 
problem?
    The Republicans like to talk about jobs and deficit, but 
their votes show what their true priorities are. The House Bill 
cuts $1.4 billion from State Clean Water funds at a time when 
the American Society of Civil Engineers has graded our drinking 
water and our wastewater infrastructure as a D minus. You can't 
get much worse than that. If we cut fund to improve our 
wastewater situation and our clean water situation, we are 
making a very bad situation worse.
    Here in the Senate, I think we have to make sure that we 
develop a sensible policy, that we do not sacrifice the health 
of our children and our families by excessive and unnecessary 
and unwise cuts to the EPA. So I have a lot of questions to ask 
you, Ms. Jackson, and I look forward to the question and answer 
period. Thank you for the work that you are doing.
    Senator Boxer. Thank you.
    Senator Johanns, followed by Senator Whitehouse.

STATEMENT OF HON. MIKE JOHANNS, U.S. SENATOR FROM THE STATE OF 
                            NEBRASKA

    Senator Johanns. Thank you very much, Madam Chairman.
    I have listened to all the comments, and I just wonder, 
Madam Administrator, what you think as this goes back and forth 
from this standpoint. I don't know of another piece of the 
Federal Government that is having a more difficult time at the 
moment than your operation. You can see the divide.
    I ran a very complex Federal department, 110,000 employees 
scattered all over the world. I always thought it was my 
responsible as Cabinet member to work with Democrats, work with 
Republicans, work with Independents. I will just tell you that 
sometimes when I was invited to a House member's office, or if 
I didn't know the House member and I didn't check to see which 
party they were, if they had a problem, I wanted to try to help 
them work through the problem.
    Recently, I asked for a list of EPA regulatory efforts, EPA 
items that applied to agriculture that were an ongoing 
challenge for agriculture. I have in front of me three pages, 
mostly single-spaced. The start of that, at the top it says, 
this summary is only an indication. It was not meant to be 
exhaustive. For everybody out there in EPA land who might by 
chance be listening to my comments, this is devastating.
    Now, nobody here is saying, let's not have clean water or 
clean air. But there has to be some common sense and 
sensibility about how we are going about this. That is why you 
are having problems with your budget. That is why the EPA is 
being targeted.
    Now, there are a number of strategies I would respectfully 
suggest that you can follow. One strategy is just to keep your 
head down and straight ahead and see who wins at the end of the 
day. I think that is the wrong strategy and it is the wrong 
strategy for our country. These regulations, I read through 
them before I came over here today, affect real people trying 
to make a living in my State and in other States in the 
country. Yet, I did nine town hall meetings last week with 
businesses, with farmers, with ranchers.
    It takes about 5 minutes for the EPA to come up. It is not 
humorous. These people are really struggling to try to figure 
out how to deal with you folks. I think that is a failure of 
the Department. If the USDA would have been in those conditions 
when I was running it, I think I would have been hauled up here 
and torn apart by all sides, Democrats and Republicans.
    So I offer that because, quite honestly, I am just so 
frustrated with where the EPA is at and what they are trying to 
do. The final thing I would mention, although this is just so 
characteristic of this Administration, it is like everybody got 
instructions, push your authorities to the limit and beyond, 
and see if they can stop us. That should be no way to work with 
Congress. But we see it in the EPA, we see it in the FCC, we 
just see it across the board, like we are absolutely irrelevant 
over here. That, I think, again, is just the wrong way to try 
to run a Federal operation.
    With that, I am anxious to hear your justification for your 
budget. But I will tell you, the problem with your budget, you 
are losing support over here. It won't be long until it will be 
a bipartisan loss. It won't be just somebody on one side of the 
table who is picking on this area of the Federal Government. It 
will be a bipartisan loss.
    Thank you, Madam Chair.
    Senator Boxer. Thank you.
    I ask unanimous consent to place in the record a letter I 
received from the American Lung Association. You know, they 
don't see it the way Senator Johanns sees it at all. As a 
matter of fact, the good news for you, Madam Administrator, is 
that they just did a bipartisan poll, let me tell you what it 
says, and then I will yield to Senator Whitehouse.
    The public expects EPA to implement the Clean Air Act, 
specifically, the EPA to implement the Clean Air Act and 
strongly opposes congressional interference in the law's 
implementation. In February, the bipartisan public poll showed 
69 percent of voters support EPA updating the Clean Air Act 
standards on air pollution; 79 percent of voters support 
stricter limits on mercury; 77 percent support stricter limits 
on smog; 74 percent support stricter limits on carbon; and 74 
percent tougher fuel efficiency standards for heavy duty 
trucks.
    I put this in the record because maybe there are some 
politicians who don't want you to do your job. The people who 
we are responsible to want you to do the job. We will put this 
in the record, and we will call on Senator Whitehouse.
    [The referenced information was not available at time of 
print.]
    Senator Johanns. Madam Chair, since you have directly 
challenged me, do I have an opportunity to respond?
    Senator Boxer. Yes, after Senator Whitehouse.
    Senator Johanns. Thank you.

  STATEMENT OF HON. SHELDON WHITEHOUSE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman. I want to thank 
the Administrator for being here, and I want to assure her that 
I am firmly on the side of those who think that you should 
enforce the Clean Air Act as the law requires. There was 
considerable debate over the law. It was settled all the way up 
to the U.S. Supreme Court. It is now crystal clear. I very much 
urge that you go forward.
    In the history of regulation of polluters, the story from 
the polluters has always been the same: don't make us do it, it 
will cause terrible consequences, we will all lose money, it is 
unreasonable. We have heard so often that you can practically 
recite it in your sleep. It happened when the Clean Air Act was 
originally enacted, it has happened through the amendments, it 
has been consistent across the board.
    The fact of the matter is, when you look at the data, the 
reports have shown that the Clean Air Act saves about 160,000 
lives a year. The biggest thing that we have in Rhode Island is 
the Dunkin' Donuts Center, it seats 14,500 people. You could 
fill it 11 times with people whose lives are saved by 
enforcement of the Clean Air Act. That is a pretty big number 
of folks, that is a lot of families that don't have to go 
through a funeral. That is a lot of grieving that is 
forestalled.
    In terms of the finances, studies have shown that Clean Air 
Act enforcement has cost about $65 billion to the economy and 
saved about $2 trillion. Because wise enforcement diminishes 
the collateral costs that polluters love to push out onto the 
rest of the public. We wouldn't be having this discussion at 
all if the cost of pollution went back onto the polluters. Then 
they would put the money in to fix it. But they don't want to 
do that. That is why they fought so hard against cap-and-trade, 
and that is why we are where we are now.
    But I do think that it would be fair for you in your 
comments to react to the comments that were made recently that 
as soon as you got here, EPA went berserk. It looks to me like 
the exact opposite happened, that during the Bush 
administration, EPA was choked down, stepped on and shut up in 
every way that the White House could dictate. There were emails 
that the White House refused to open, so it wouldn't trigger 
administrative procedures.
    The Administrator was called up to the White House when the 
EPA was recommending action, and told to snuff it, and he went 
back down and he did snuff it out. The White House censored CDC 
documents when they were going to be released related to this. 
Vice President Cheney tried to get the lawsuits that EPA was 
bringing against the polluters in the Midwest stopped.
    So what has happened isn't that the EPA has suddenly gotten 
hyperactive. What has happened is that the tight leash, the 
muzzle that the Bush administration improperly put on the EPA 
for years has been released, because it was wrong to have it 
there in the first place, and now all that pent-up work needs 
to be done for the sake of the American public and for the sake 
of all of our health.
    When I mentioned the Midwest power plants, the coal-burning 
plants, that is a particular reason why it is important for EPA 
to be active. Rhode Island has 10 percent asthma. You can get 
up on a bright, clear summer morning in Rhode Island and 
driving into work, you hear the warning that this is not a safe 
air day. That if you are old, if you are an infant, if you have 
breathing difficulties, you need to stay home in the air 
conditioning. It is not because of anything that is happening 
in Rhode Island. It is ozone that is being brought in from out 
of State.
    Rhode Island DEM can regulate and can fuss over Clean Air 
standards until it is blue in the face. But the transport rule, 
the Federal transport rule is the one thing that is our 
protection in Rhode Island, the protection of our kids' lungs, 
of our seniors' lungs, of our grandparents' lungs, against the 
pollution that is being coughed up out of the Midwest, largely 
from coal, and that then lands on us.
    So I want to strongly urge you to obviously, you have been 
at this game a long time. You know what is fair, you know what 
is right. Don't let people mischaracterize what you are doing. 
Go forward, do your job, protect our health. History will judge 
you well.
    Senator Boxer. Thank you very much, Senator.
    Senator Johanns, I will give you a minute to respond to my 
reading of the letter from the Lung Association.
    Senator Johanns. That is very much appreciated.
    Here is my point. There is nothing in anything I said that 
says, don't enforce the law. Nothing. What I am saying is this: 
you are having a hard time in the EPA with budget issues and 
other issues, because I believe fairly strongly, very strongly, 
that confidence is slipping away in what you are doing. When I 
asked for regulations on agriculture, and I see three pages, 
and they are only giving me an idea of what is going on, I 
wonder what is going on.
    One of the things I did as Secretary of Agriculture, I went 
out and did listening sessions across the United States. Not 
pre-scripted. Anybody could walk in and tell me what they liked 
or didn't like, and I learned a lot. It helped me do my job.
    The point is, common sense goes a long way.
    Senator Boxer. Thank you, Senator. I don't know how----
    Senator Udall. Madam Chair?
    Senator Boxer. Yes? Yes, go ahead.
    Senator Udall. I just want to offer something into the 
record.
    Senator Boxer. Sure.
    Senator Udall. The statement was made here that there was 
this great consensus in 1970 about global cooling. There is an 
article from 2008, USA Today, reviewed all the literature. The 
supposed global cooling consensus among scientists in the 
1970's is a myth, and I would just offer that for the record.
    Senator Boxer. Would you put that in the record, then?
    Senator Udall. Yes. I will.
    [The referenced information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. I say, Senator Johanns, I thought that was 
very good advice to an Administrator who of course has to know 
the best way to implement the laws. But that is not the 
impression that I got from you. So let me just say, in going 
back to this poll one more minute, I said it was bipartisan. I 
asked my staff, who did the poll. So listen to who did the 
poll.
    It was the Democratic polling firm, Greenberg, Quinlan, 
Rossner Research and the Republican firm, Ayres, McHenry and 
Associates. There was no divide. Everybody supports the EPA 
doing its job.
    Now, if what Senator Johanns is saying, do it in the best 
way, of course, we are all there. But that is not the sense I 
had from it, and I am glad that he clarified it. Because you 
don't have a choice. The law is the law is the law. You have to 
implement it.
    Well, let's get started and listen to you.
    Senator Inhofe. Well, wait a minute.
    Senator Boxer. Yes, go ahead.
    Senator Inhofe. We have a jump ball here.
    Senator Boxer. Well, go ahead, I will give you 2 minutes.
    Senator Inhofe. I will ask the Senator, Senator Udall, are 
you saying they are now disavowing what they said about the 
cooling spell, another ice age coming? Because I have not heard 
that. That is the first time I have heard that.
    Senator Udall. No, they actually, let me just, this is an 
article that reviewed the scientific literature, the Climatic 
Data Center surveyed dozens of peer-reviewed scientific 
articles from 1965 to 1975, and found that only 7 supported 
global cooling, while 44 predicted warming. So the whole idea, 
if we are going to make the statement that the same scientists 
concluded global cooling that are now concluding global 
warming, I don't think that that is an accurate scientific 
summary of what was going on in the 1970's.
    Senator Inhofe. That is really interesting, because I have 
never heard that before. I do have some things I want to submit 
to the record, because I remember so well what Senator Barrasso 
was talking about. In fact, I have a chart I sent for, they are 
looking for it right now, taking the same magazines that were 
quoting the same scientists way back in 1976, and then again in 
2006.
    Senator Sanders. If I may----
    Senator Boxer. Can I just say, last comment, 30 seconds, 
Senator Sanders.
    Senator Sanders. I think what Senator Inhofe is saying in a 
sense is correct, there were articles, you have front pages of 
magazines making the point. But what Senator Udall is saying, 
yes, there were magazines, but that was not reflecting the 
scientific opinion, the opinion of the scientific community. So 
there may have been stories.
    Senator Inhofe. I know what he is saying. However, these 
stories had the names of scientists in it. I will go ahead and 
get these and submit them for the record.
    [The referenced information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. I tell you what let's do. We will put, I ask 
unanimous consent that colleagues have a couple of days to get 
this in the record. We are going to move on and hear from Hon. 
Lisa Jackson right now. You can use that when you get to your 
question time.
    Go ahead.

 STATEMENT OF HON. LISA JACKSON, ADMINISTRATOR, UNITED STATES 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Jackson. Thank you, Madam Chair, Ranking Member Inhofe, 
and members of the Committee. Thank you for inviting me to 
testify about President Obama's Fiscal Year 2012 budget request 
for the Environmental Protection Agency.
    Congress enacted the Clean Air Act, the Clean Water Act and 
America's other bedrock environmental protection laws on a 
broadly bipartisan basis. It did so to protect American 
children and adults from pollution that otherwise would make 
their lives shorter, less healthy and less prosperous. It did 
so to make the air and drinking water in America's communities 
clean enough to attract new employers.
    It did so to enable America's local governments to 
revitalize abandoned and polluted industrial sites. It did so 
to safeguard the pastime of America's 40 million anglers. It 
did so to protect the farms whose irrigation makes up a third 
of America's surface freshwater withdrawals. It did so to 
preserve the livelihoods of fishermen in American great waters, 
such as the Chesapeake Bay and the Gulf of Mexico.
    Congress gave EPA the responsibility of implementing and 
enforcing those laws, and each year, Congress appropriates the 
money that makes EPA's implementation and enforcement work 
possible. As head of the EPA, I am accountable for ensuring 
that we squeeze every drop of public health protection out of 
every dollar we get.
    So I support the tough cuts in the President's proposed 
budget. But I am equally accountable for pointing out where 
cuts become detrimental to public health. Without adequate 
funding, EPA would be unable to implement or enforce the laws 
that protect Americans' health, livelihoods and pastimes. Big 
polluters would flout legal restrictions on dumping 
contaminants into the air, into rivers and onto the ground. 
Toxic plumes already underground would reach drinking water 
supplies, because ongoing work to contain them would stop. 
There would be no EPA grant money to fix or replace broken 
water systems, and the standards that EPA has set to establish 
for harmful air pollution from smokestacks and tailpipes would 
remain missing from a population of sources that is not static, 
but growing.
    So if Congress slashed EPA's funding, concentrations of 
harmful pollution would increase from current levels in the 
places Americans live, work, go to school, fish, hike and hunt. 
The result would be more asthma attacks, more missed school and 
work days, more heart attacks, more cancer cases, more 
premature deaths and more polluted waters. Needless to say, 
then, I fervently request and deeply appreciate continued 
bipartisan support in Congress for funding the essential work 
that keeps American children and adults safe from uncontrolled 
amounts of harmful pollution being dumped into the water they 
drink and the air they breathe.
    President Obama believes that our Federal Government must 
spend less money. Decreasing Federal spending is no longer just 
a prudent choice, it is now an unavoidable necessity. 
Accordingly, the President has proposed to cut EPA's annual 
budget nearly 13 percent from its current level. That cut goes 
beyond eliminating redundancies. We have made difficult, even 
painful choices. We have done so, however, in a careful way 
that preserves EPA's ability to carry out its core 
responsibilities to protect the health and well-being of 
America's children, adults and communities.
    You have been reviewing the budget request for more than 2 
weeks now, so I will not march through all its details. Rather, 
I will provide just a few examples of the difficult choices we 
have made while preserving fundamental safeguards. This request 
provides $2.5 billion, a decrease of $947 million, for the 
Clean Water and Drinking Water State Revolving Funds. Future 
year budgets for the SRFs will adjust, taking into account 
repayments.
    EPA, the States and community water systems will build on 
past successes, while working toward the Fiscal Year 2012 goal 
of ensuring that over 90 percent of the populations served by 
community water systems receive drinking water that meets all 
applicable health standards.
    This budget requests an additional $6.4 million to conduct 
integrated pilot projects in several communities, including 
disadvantaged ones, to evaluate and reduce risks from toxic air 
pollution through regulatory enforcement and voluntary efforts. 
An additional $3.7 million will improve our monitoring of toxic 
air pollution, and our dissemination of that data to State, 
local and tribal governments and to the public.
    The budget contains $350 million for programs and projects 
strategically chosen to target the most significant 
environmental problems in the Great Lakes ecosystem. That 
represents a cut of $125 million from Fiscal Year 2010, which 
was the first year of the initiative. We will implement the 
most important projects for the Great Lakes and its restoration 
and achieve visible results.
    With this budget's $16 million investment in enhancing 
chemical safety, we will take action to reduce chemical risks, 
increase the pace of chemical hazard assessments and provide 
the public with greater access to information on toxic 
chemicals. We will use the funds to implement chemical risk 
reduction steps that address impacts on children's health and 
on disadvantaged, low income and indigenous populations.
    Thank you, Madam Chair. I look forward to the Committee's 
questions.
    [The prepared statement of Ms. Jackson follows:]
 Statement of Hon. Lisa P. Jackson, Administrator, U.S. Environmental 
                           Protection Agency
    Madame Chair, Ranking Member Inhofe, and Members of the Committee, 
thank you for the opportunity to appear before you to discuss the 
Environmental Protection Agency's proposed budget. In the State of the 
Union--as President Obama laid out a plan to win the future--he made 
clear that we ``will not hesitate to create or enforce common-sense 
safeguards to protect the American people,'' and explained that these 
safeguards are ``why our food is safe to eat, our water is safe to 
drink, and our air is safe to breathe.''
    These are the services EPA provides. EPA's activities prevent 
thousands of illnesses such as asthma, cancer and other diseases. They 
help keep students and workers healthy so they can be more productive. 
They save lives. Preliminary estimates show that last year, the Clean 
Air Act alone is estimated to have saved 160,000 lives and prevented 
more than 100,000 hospital visits.
    President Obama also understands, however, that as millions of 
families are cutting back and making sacrifices, they expect the same 
level of good fiscal sense out of their government.
    This budget reflects that good fiscal sense, and makes many tough 
choices. FY 2010's budget of $10.3 billion was EPA's highest funding 
level since its creation. This FY 2010 budget request, while a deep cut 
resulting in a total budget of $8.973 billion, will allow EPA to carry 
out its core mission and fund the most critical efforts to protect the 
health of American families.
    The choices in this budget reflect EPA's commitment to core 
regulatory work and preserving the hard-won progress made over the last 
40 years in protecting and restoring the quality of our air, water, and 
land; ensuring the safety of our chemicals; and providing strong 
enforcement of environmental laws and regulations.
    At the same time, we have heeded the President's call for deficit 
reduction and made some painful choices to reduce funding for important 
programs. As it does every year, EPA has worked to find efficiencies 
within our programs and in some cases made reductions trusting that 
further efficiencies can be found. The $8.973 billion proposed for EPA 
in the FY 2012 President's Budget will allow the Agency to maintain its 
core programs while investing in areas of urgent need and will support 
key priorities during this time of fiscal challenges.
    This budget represents a nearly 13 percent reduction over the DFY 
2010 budget and reflects our priorities: supporting action on climate 
change and improving air quality; protecting America's waters; building 
strong State and tribal partnerships; strengthening enforcement and 
compliance; enhancing chemical safety; supporting healthy communities; 
and maintaining a strong science foundation. Because of the constrained 
fiscal environment, the Budget decreases the State Revolving Funds 
(SRFs) by nearly $950 million while supporting a long-term goal of 
providing about 5 percent of total water infrastructure spending and 
spurring more efficient system-wide planning. The Budget also reduces 
the Great Lakes Restoration Initiative by $125 million, eliminates 
about $160 million in targeted water infrastructure earmarks, and 
eliminates $60 million for clean diesel grants.
    Our priorities are aligned with the governmentwide effort to 
identify near-term high priority performance goals. For EPA, our goals 
include reducing greenhouse gas emissions, improving water quality, and 
delivering improved environmental health and protection to our 
communities. EPA will work toward meeting these goals over the next 18 
to 24 months.
    Madam Chair and Members of the Committee, let me touch on some of 
the highlights of this budget, both the painful choices and the 
targeted investments that will protect our health and the environment.
     supporting action on climate change and improving air quality
    We are committed to meeting EPA's obligations under the Clean Air 
Act, the landmark law that all American children and adults rely on to 
protect them from harmful air pollution. We will continue to take 
meaningful, common sense steps to address climate change and improve 
air quality. Making the right choices now will allow the Agency to 
improve health, drive technology innovation, and protect the 
environment; all without placing an undue burden on the nation's 
economy. Indeed, EPA's implementation of the Clean Air Act has saved 
millions of lives and avoided hospital visits; enhanced American 
productivity by preventing millions of lost workdays and growing the 
clean energy sector; and kept American children healthy and in school.
    Our budget requests $46 million for additional regulatory efforts 
aimed to reduce greenhouse gas emissions and address the Climate and 
Clean Energy Challenge. This includes $30 million in State grants and 
support for permitting, which will ensure that our State partners 
develop the technical capacity to address greenhouse gas emissions 
under the Clean Air Act. Also included is $6.0 million in additional 
funding for the development and implementation of new emission 
standards that will reduce greenhouse gas emissions from mobile sources 
such as passenger cars, light-duty trucks, and medium-duty passenger 
vehicles. These funds also will support EPA's assessment and potential 
development, in response to legal obligations, of standards for other 
mobile sources. Also included is $7.5 million for the assessment and 
potential development of New Source Performance Standards for several 
categories of major stationary sources through means that are flexible 
and manageable for business. Finally, this amount includes an 
additional $2.5 million for priority measurement, reporting and 
verification activities related to implementing the GHG Reporting Rule, 
to ensure the collection of high quality data.
    Our air toxics strategy prioritizes standards that provide the 
greatest opportunity for cost-effective emissions reductions. This 
budget requests an additional $6.4 million to conduct integrated pilots 
in several communities, including disadvantaged communities, to 
systemically evaluate and reduce risks from toxic air pollutants 
through regulatory, enforcement, and voluntary efforts. An additional 
$3.7 million will improve air toxic monitoring capabilities and 
dissemination of information between and among the EPA offices, the 
state, local and tribal governments, and the public.
    We anticipate a more than four-fold increase in the number of 
vehicle and engine certificates EPA issues. In addition, as a result of 
diverse and sophisticated technologies, we anticipate more challenging 
oversight requirements for both the vehicle/engine compliance program 
and fuels. We will upgrade vehicle, engine, and fuel testing 
capabilities through a $6.2 million investment in the National Vehicle 
and Fuel Emissions Laboratory.
                      protecting america's waters
    By leveraging partnerships and traditional and innovative 
strategies, we will continue to sustain and improve water 
infrastructure and clean-up America's great waterbodies. EPA, the 
states, and community water systems will build on past successes while 
working toward the FY 2012 goal of assuring that 91 percent of the 
population served by community water systems receives drinking water 
that meets all applicable health based standards.
    The Clean Water State Revolving Fund (CWSRF) and Drinking Water 
State Revolving Fund (DWSRF) provide grants to states, which use the 
funds to make affordable loans to local communities for public drinking 
water and wastewater infrastructure projects. The President's Budget 
requests $1.55 billion for the Clean Water SRF and $990 million for the 
Drinking Water SRF. This request level reduces funding for State 
Revolving Funds by $947 million from FY 2010 levels. As part of the 
Administration's long-term strategy, EPA is implementing a Sustainable 
Water Infrastructure Policy that focuses on working with states and 
communities to enhance technical, managerial, and financial capacity. 
Important to the technical capacity will be enhancing alternatives 
analysis to expand ``green infrastructure'' options and their multiple 
benefits. Future year budgets for the SRFs gradually adjust, taking 
into account repayments, through 2016 with the goal of providing, on 
average, about 5 percent of water infrastructure spending annually. 
Federal dollars provided through the SRFs will serve as a catalyst for 
efficient system-wide planning and ongoing management of sustainable 
water infrastructure.
    We will also leverage our partnership with states and tribes 
through an additional $21 million in Water Pollution Control (Sec. 106) 
grants to enhance water quality and to provide additional resources to 
address Total Maximum Daily Load (TMDL), nutrient, and wet weather 
issues. An additional $4 million is requested for Public Water Systems 
Supervision grants to support management of State and drinking water 
system data, improve data quality, and allow the public access to 
compliance monitoring data not previously available. This will improve 
transparency and efficiency and reduce the need for State resources to 
maintain individual compliance databases.
    This budget supports EPA's continued efforts to clean up America's 
great waterbodies. It includes $67.4 million for the Chesapeake Bay 
program, a $17.4 million increase, which will allow EPA to continue to 
implement the President's Executive Order on Chesapeake Bay Protection 
and Restoration. The increased funding will support Bay watershed 
States as they implement their plans to reduce nutrient and sediment 
pollution in an unprecedented effort to restore this economically 
important ecosystem.
    This budget has $350 million included for programs and projects 
strategically chosen to target the most significant environmental 
problems in the Great Lakes ecosystem, a $125 million decrease from FY 
2010, the first year of the initiative. Led by EPA, and engaging the 
capabilities of a number of Federal agencies, the initiative will 
implement the most important projects for Great Lakes Restoration and 
achieve visible results.
    The Administration is committed to restoring and protecting the 
Gulf Coast ecosystem following decades of environmental harm, including 
the BP Deepwater Horizon oil spill. As Chair of the Gulf Coast 
Ecosystem Restoration Task Force, established by Executive Order 13554, 
I will work with the Federal and State Task Force members to lead 
environmental recovery efforts in the region. EPA is also working to 
support the Federal and State Trustees on the Deepwater Horizon Natural 
Resource Damage Assessment and Restoration Trustee Council as they 
develop a restoration plan to restore the region's natural resources to 
pre-spill conditions. As a complement to these efforts, EPA's request 
of $6.6 million for the Mississippi River Basin program will address 
excessive nutrient loadings that contribute to water quality 
impairments in the basin and, ultimately, to hypoxic conditions in the 
Gulf of Mexico.
             building strong state and tribal partnerships
    Strong partnerships and accountability are vital to the 
implementation of environmental programs, and we are committed to 
strengthening State and tribal capacity. This budget includes $1.2 
billion for State and tribal grants which is an overall increase of 
$84.9 million over FY 2010 within this amount is a reduction to 
Nonpoint Source (Sec. 319) Grants and Local Government Climate Change 
Grants. This request will provide critical support to State and local 
governments who are working diligently to implement new and expanded 
requirements under the Clean Air Act and Clean Water Act.
    These include implementation of updated National Ambient Air 
Quality Standards and addressing complex water quality issues such as 
nutrient pollution, which I discussed earlier.
    To help tribes strengthen environmental protection capacity and 
move forward with implementation of environmental programs, an $8.5 
million increase is included for Tribal General Assistance Program 
grants and $20 million is budgeted for the competitive Tribal Multi-
media Implementation grant program.
                strengthening enforcement and compliance
    Regulated entities, Federal agencies, and the public benefit from 
easy access to tools that help them understand environmental laws and 
find efficient, cost-effective means for putting them into practice. 
This budget includes a request of $27.5 million for the Regaining 
Ground in Compliance Initiative. Through this initiative, EPA will 
begin to harness the tools of modern technology to address some of 
these areas and make EPA's Enforcement and Compliance Assurance program 
more efficient and effective. We also will increase the number of 
inspections at high risk facilities regulated under the Spill 
Prevention, Control and Countermeasures (SPCC) and the Facility 
Response Plan (FRP) regulations.
    By increasing the use of electronic reporting, monitoring tools, 
and market-based approaches, we will improve the effectiveness and 
efficiency of our limited resources, and ensure a level playing field 
for American businesses. By maximizing the use of advanced data and 
monitoring tools, we can focus our limited inspection and enforcement 
resources and focus our attention on identifying where the most 
significant vulnerabilities exist.
                       enhancing chemical safety
    America's citizens deserve to know the products they use are safe. 
One of my highest priorities is making significant and long overdue 
progress in assuring the safety of chemicals. We are taking immediate 
and lasting actions to eliminate or reduce identified chemical risks 
and develop proven alternatives.
    FY 2010 represents a crucial stage in our approach for ensuring 
chemical safety. The program has attained its ``zero tolerance'' goal 
in preventing the introduction of unsafe new chemicals into commerce. 
However, many ``pre-TSCA'' chemicals already in commerce remain un-
assessed.
    With the $16 million investment for the Enhancing Chemical Safety 
initiative included in this budget, we will increase the pace of 
chemical hazard and risk assessments, strengthen chemical information 
management and transparency, and take action to address identified 
chemical risks including careful consideration of the impact of 
chemicals on children's health and on disadvantaged, low-income, and 
indigenous populations. The additional funding will help to close 
knowledge and risk management gaps for thousands of chemicals already 
in commerce through actions that will decrease potential impacts to 
human health and the environment. We also will continue promoting use 
of proven safer chemicals, chemical management practices, and 
technologies to enable the transition away from existing chemicals that 
present significant risks.
                     supporting healthy communities
    We are committed to protecting, sustaining or restoring the health 
of communities and ecosystems by bringing together a variety of 
programs, tools, approaches and resources directed to the local level. 
Partnerships with international, Federal, state, tribal, local 
governments, and non-governmental organizations have long been a common 
thread across EPA's programs. This diversity of perspectives and 
experiences brings a wider range of ideas and approaches, and creates 
opportunities for innovations.
    The budget includes a $20.4 million multidisciplinary initiative 
for Healthy Communities. It supports states and communities in 
promoting healthier school environments by increasing technical 
assistance on school siting, environmental health guidelines, and 
Integrated Pest Management in schools. It also provides resources to 
address air toxics within at-risk communities, and to enhance the 
important joint DOT/HUD/EPA outreach and related efforts with 
communities on sustainable development.
    We proudly support the America's Great Outdoors initiative to 
develop a community-based 21st century conservation agenda that can 
also spur job creation in the tourism and recreation industries. 
Leveraging support across the Federal Government, EPA will join the 
Department of the Interior, the Department of Agriculture, and the 
Council on Environmental Quality to lead the coordinated effort to 
protect and restore our outdoor legacy. The area-wide planning and 
community support focus of existing EPA programs and initiatives like 
Urban Waters and Brownfields programs align well with the goals and 
objectives of this new initiative.
                maintaining a strong science foundation
    To develop a deeper understanding of our environmental challenges 
and inform sustainable solutions, we are requesting a science and 
technology budget of $826 million, $22 million lower than our FY 2010 
enacted funding level, reflecting both efficiencies and difficult 
choices in order to ensure support for the highest priority science 
needs. We will strengthen planning and delivery of science through an 
integrated research approach, which will help us more deeply examine 
our environmental and public health challenges. By looking at problems 
from a systems perspective, this new approach will create synergy and 
produce more timely and comprehensive results beyond those possible 
from approaches that are more narrowly targeted to single chemicals or 
problem areas. Within the request, we are including increases for 
research on endocrine disrupting chemicals, green infrastructure, air 
quality monitoring, e-waste and e-design, green chemistry, and the 
potential effects of hydraulic fracturing on drinking water.
    To make progress on these research priorities and leverage the 
expertise of the academic research community, funding redirections will 
support additional Science to Achieve Results (STAR) grants and 
fellowships. This budget also supports the study of computational 
toxicology, and other priority research efforts with a focus on 
advancing the design of sustainable solutions for reducing risks 
associated with environmentally hazardous substances. Two million 
dollars is also included to conduct a long-term review of EPA's 
laboratory network. These increases are offset by redirections from 
other areas, such as human health and ecosystems, biofuels, homeland 
security, mercury, and groundwater remediation.
    We look forward to working with the Congress to cut spending and 
cut the deficit. But to win the future, we cannot cut in a way that 
will undermine our ability to win the future and out-educate, out-
innovate, and out-build our economic competitors. The budget that the 
President announced is a responsible plan that shows how we can live 
within our means and invest in the future. It makes tough choices to 
cut spending and cut the deficit. It includes a 5-year non-security 
discretionary freeze, saving more than $400 billion over the decade and 
reducing non-security discretionary spending to its lowest level as a 
share of the economy since President Eisenhower, and the Budget reduces 
the deficit by more than $1 trillion, putting us on a path to fiscal 
sustainability.
    Thank you again for inviting me to testify today, and I look 
forward to answering your questions.

    Senator Boxer. Thank you.
    As you know, there are many efforts going on in the short 
term for the 7-month 2011 budget to not only cut huge amounts 
from EPA, but also to prohibit EPA, there are riders on there, 
which we are going to fight hard against any riders, because a 
lot of us don't believe that this is the proper place, on a 
budget, to essentially weaken the Clean Air Act. People want to 
repeal the Clean Air Act, just bring it to the floor, we will 
debate that, and oh, boy, will the American people weigh in.
    But instead of doing that, they do these cuts by a thousand 
deaths. We heard about bills to prohibit you from enforcing, 
stopping pollution or cutting it down from boilers or cement 
plants. So I want to ask you to put it so the American people 
understand what this is. What kind of pollution comes out of 
cement plants and boilers? Let's take those two as an example.
    Ms. Jackson. Both have some pollutants in common. Mercury 
is a big problem, and other metals, sometimes arsenic or 
chromium.
    Senator Boxer. OK, let's stop there a minute. What is the 
impact of mercury?
    Ms. Jackson. Mercury is a neurotoxin.
    Senator Boxer. Explain that. What do you mean by that?
    Ms. Jackson. It is toxic to our nervous system, our brains. 
It is particularly toxic to the development of brains in young 
children.
    Senator Boxer. So the goal is to reduce this mercury, so 
that we don't harm our children and the most vulnerable people.
    What about arsenic? From my recollection, arsenic can kill.
    Ms. Jackson. Yes. Arsenic is a carcinogen. It is a 
naturally occurring metal, but it is also in water, can be 
carcinogenic. We have communities across the country that still 
are struggling to meet Federal standards for clean drinking 
water for arsenic.
    Senator Boxer. What pollution is in particulate matter, 
those small pieces of pollution that get in our air?
    Ms. Jackson. Tiny pieces or particles, maybe you can call 
them soot, coarse particles, are a little bit bigger, are 
killers. They actually, they don't make you sick, they 
contribute to premature deaths. So that is actually a causal 
relationship. It is not speculative, and it is the basis, 
oftentimes, for the estimates of lives, premature deaths 
avoided are generally due to soot pollution.
    Senator Boxer. So when you work on cleaning up the air, do 
you take into account the benefits that people have, and does 
the law require you to do that?
    Ms. Jackson. Absolutely. This is beyond common sense, as 
the Senator asked, and I certainly support. This is about being 
able to show tremendous benefits, sometimes on the order of 30 
to 40 dollars in benefits, health benefits, for every dollar 
spent by a polluter or an industry to control its pollution.
    Senator Boxer. OK. In your report of March 2011, was this 
report required by Congress?
    Ms. Jackson. Yes, it was.
    Senator Boxer. The benefits and costs of the Clean Air Act. 
Could you tell me if I am right in saying these things, that in 
the year 2010, the particulate matter, the fact that you were 
able to go after this, resulted in 160,000 lives saved in 2010?
    Ms. Jackson. Right, 160,000 incidences of premature 
mortality.
    Senator Boxer. Were prevented?
    Ms. Jackson. Yes.
    Senator Boxer. Let's go to infant mortality in the year 
2010. Infant mortality, which by the way, we are slipping on 
that front. So how many premature deaths of infants were there 
in 2010?
    Ms. Jackson. Madam Chair, do you have the number?
    Senator Boxer. Well, I show 230, I just wanted to make sure 
that I am reading it correctly.
    Ms. Jackson. We will confirm that number, but that sounds 
right.
    Senator Boxer. OK. It shows here that ozone mortality, 
4,300 lives saved there. It shows cases of chronic bronchitis, 
54,000 prevented. So asthma, you call it--explain that word--
exacerbation, is that? So explain to me what that means, those 
cases of asthma that didn't get worse because you cleaned up 
the air?
    Ms. Jackson. That is absolutely right. That is absolutely 
right. Asthma attacks avoided, cases that didn't proceed 
because of better air, cleaner air.
    Senator Boxer. You show here 86,000 hospital admissions 
that didn't occur in 2010 alone. Isn't there a cost to hospital 
admissions?
    Ms. Jackson. Certainly.
    Senator Boxer. The person going in, we know about our 
health care costs. School days, this is unbelievable, school 
days lost, prevented 3,200,000 school days lost. That is an 
enormous number.
    Here is the other one. I want my colleagues to understand 
this, when I say you can't breathe, you can't work, 13 million 
lost work days prevented. So give me a break. When you say that 
you are stopping the EPA from doing their job under the Clean 
Air Act, you are costing people. You are giving a sentence to 
people to have worse asthma, worse bronchitis, possibly 
premature death, losing an infant. Give me a break.
    I am just going to say right here and now, because I think 
that Senator Johanns, he is very strong on his side of things, 
and I greatly respect him, we are going to be just as strong. 
There is not a day that goes by that I am not going to be 
talking with, not a day, physicians and people who are 
respected, the American Lung Association, they don't have any 
dog in the fight. They want to do what is right for the ountry.
    So I just want to say to you, first of all, I think that 
your budget is a tough budget. You are cutting. But what is 
going on around this place is going against the American 
people. I will tell you that our side of the aisle here, 
because unfortunately it is shaping up to be a partisan battle. 
That is a shame. Senator Inhofe and I, when it comes to 
infrastructure, we are working hand in glove. We are not 
working together on this. He has a bill that is going to stop 
you from doing your job. I am going to take it to the American 
people, and he will as well. It is just the way it is, we just 
don't have agreement on this.
    That makes me really sad. Sad for the people who, if they 
get their way, are going to get sick and die prematurely. That 
is the fact. We asked you to do this study and you did it. You 
have quantified the benefits, and they are tremendous.
    So I know we are divided on this, it is painful for me. I 
don't enjoy that, it is tough for me, because I want us to work 
together. We are friends. But this is one area where it is 
going to be tough.
    But each side is going to make its strongest case. All I 
ask you to do is tell the truth and follow the law. That is all 
I ask. I don't want you to exaggerate any benefit, I don't want 
you to play politics. You never do, you are always just very, 
you sit there and you just tell it like it is. I am encouraging 
you to do that.
    Senator Inhofe.
    Senator Inhofe. All right, thank you, Madam Chairman.
    Hold up those charts, will you? I had a lot of thunder with 
these on the floor some time ago, but that was before you had 
your job, I say, Madam Administrator. I want to make sure you 
don't miss this.
    Senator Barrasso mentioned some of these articles and some 
of them go way back. There are many, many more that he did. 
That was a consensus at that time. So there we have, 1974, 
Another Ice Age is Coming, and it quotes all the scientists 
down here. This is the prevailing thought at that time. There 
is not a person in this room that doesn't remember that. 
Remember, we are all going to die because of the ice age.
    Now, the same magazine, Time Magazine, that is the same 
magazine and this is back in, I think, 2007, of the last polar 
bear standing on the last cube of ice. These things sell. There 
is no question about that. As long as you can convince people 
the world is coming to an end, you get their attention.
    I don't know where, I think you were probably in New Jersey 
at the time, during the Bush administration, when they had the 
Clear Skies Act, isn't that correct? At that time, that would 
have been, if we had passed that, the largest reduction in 
emissions of SOx, NOx and mercury of any president, any 
administration in the history of this country. But it was held 
hostage, because they didn't have the CO<INF>2</INF> in there.
    So it is kind of perplexing. You think all that poison is 
floating around in there, and we can bring it down, but unless 
you let us have our favorite ``pollution,'' which I still don't 
think it is, then you are not going to be able to do it. So 
that was one of the problems we had.
    Now, I have to say this also. If it is so certain that this 
problem exists, and that man-made anthropogenic gases are 
causing catastrophic global warming, why is it that the 
majority, the vast majority have not just, this is the current 
legislature, I am talking about the last legislature where the 
Democrats had large majorities in both the House and the 
Senate, that they weren't able to get--the most Senate votes 
that were out there to have some type of a cap-and-trade, which 
is essentially what you are trying to do, not you, but the 
Administration through regulation, the same time that that was 
going on, it was just, it was something that the most votes 
they could get in the U.S. Senate were about 32 votes.
    We have actually had test votes. So we ran through the 
McCain-Lieberman legislation of 2003, the McCain-Lieberman of 
2005, the Warner-Lieberman, the Boxer-Sanders, at one time we 
had that bill, Markey-Waxman, all those bills were just about 
the same. Yet they could never get above about 32 members of 
the U.S. Senate. Though the reason it is being pushed off on 
you is because they couldn't do it legislatively. We all 
understand that.
    So you can sit around here and use these forums, these 
meetings, to talk about whether or not catastrophic global 
warming is due to man-made gases, but that doesn't really 
address what we are trying to do here. Yes, it does indirectly, 
because I said in my opening statement that one of the largest 
expenses that your department has is that regulation, which at 
the last hearing I think we determined it was not mandated by 
the courts, but it was offered as an option by the courts.
    Let me just ask you something specific. On the Executive 
Order on improving regulations and the regulatory process, when 
the Administrator or the President said this, in his Executive 
Order, I thought it was really pretty good. Because we are 
really concerned as to what the costs are going to be. The 
Executive Order states that regulations should consider ``the 
cost of cumulative regulations.'' Now, what does that mean to 
you, Madam Administrator?
    Ms. Jackson. The plain language of it is that we should 
look at regulations that might hit a sector, might accumulate.
    Senator Inhofe. I would agree with that. So if you just 
look at some of them that we have talked about, the boiler 
MACT, the study there shows about probably 800,000 jobs at 
risk. The United Steelworkers Union, they did a study on this. 
It was said they will be sufficient to imperil the operating 
status of many industrial plants. In the Union's view, tens of 
thousands of jobs would be imperiled.
    The ozone regulations, and my city of Tulsa, it would be 
one of those counties, I think, that if we were to adopt these 
standards, would be out of attainment. I know a little bit 
about how tough it is to be out of attainment, because that 
happened to us back when I was mayor of a major city, Tulsa, 
OK.
    You can go on down this thing. The PM dust. The PM dust, 
this is farm dust. I had kind of an interesting news conference 
in southern Oklahoma, right when they came out with the idea 
that we might do the PM-10 dust. We had a lot of people there, 
a lot of cameras from around the country. I said, all right, 
folks, do you see what this is right down here, that is cotton. 
Down below it, that is dirt. This up here, that is wind. Now, 
are there any questions?
    We don't have technology to do many of the things that we 
are talking about in all these MACTs that we have, whether it 
is refinery MACT or it is Boiler MACT or any of the rest of 
them. Utility MACT, the same thing is true. The Unions for Jobs 
and Environment, which includes many unions, including the 
Teamsters and the Mine Workers, they talk about the hundreds of 
thousands of jobs that are going to be lost.
    Then of course one of them that I probably shouldn't bring 
up at this time, but there seems to be this commitment to try 
to do something about the process called hydraulic fracturing. 
I think we know that as of a study just in the last 12 months, 
we have the largest recoverable reserves in coal oil and gas of 
any of the countries out there. In fact, in gas, we have enough 
to run our country for 110 years.
    Now, this is the problem that we have. Right now, look at 
what is happening in the Middle East. I don't want to go into 
all this thing, but we really do need to look at these 
regulations and see what the cumulative effect is. So what I 
would like to do is have you and your staff look at these 
things and perhaps we can just take maybe those six regulations 
and report to us, in your opinion, what types of jobs, the 
number of jobs it would lose and the amount of money that it 
would cost, which I think would be a reasonable expectation.
    One last thing. You went over 2 minutes, so I will.
    The question came up by the Senator, I can't remember who 
it was, as to whether or not, they were talking about was there 
really a threat of an ice age at one time. I would like to read 
you, from Dr. John P. Holdren, who was Assistant to the 
President for Science and Technology and Director of the White 
House Office on Science and Technology, and Co-Chair of the 
President's Council of Advisors, what he had written was, below 
is a direct scan of pages 76 and 77 of his book. He said, ``The 
effect of a new ice age on agriculture and the supportability 
of large human populations scarcely need elaboration here. Even 
more dramatic results are possible. However, for instance, a 
sudden outward slumping in the Arctic ice cap induced by added 
weight,'' this is another ice age coming, ``could generate a 
tidal wave of proportions unprecedented in recorded history.''
    So you have even the President's people who agree with me, 
Madam Chairman.
    Senator Boxer. Oh, yes, and I think that this article that 
Senator Udall put in acknowledges that there were scientists 
who did call for the ice age, but that most of them did not. So 
why don't we just let people read this for themselves and 
decide.
    I would ask if you would amend your request to not only 
include how many jobs and all of those things, but also how 
many days lost of work would be prevented, how many cases of 
asthma and premature mortality. If she is going to do that kind 
of thing.
    Senator Inhofe. What I would like to do is go ahead and 
press mine, then if you can do yours. Because if we incorporate 
the two, it would be some time in 2014 before we get any kind 
of a reply.
    Senator Boxer. I don't think so, because they have this. 
But OK, I will make a separate request, that if you were to 
back off and not do your job, which by the way, you have to do 
unless they change the law, but if you were to back off on all 
of these areas, and that is why I asked about mercury, arsenic 
and all these areas, if you could give us a notion of how many 
days we would lose on work and how many more hospital 
admissions and all of those breakdowns, if you could take the 
2010 numbers and look at them going forward.
    OK, now Senator Sanders, you are next.
    Senator Sanders. Ms. Jackson, I am sorry I didn't get a 
chance to hear all of your testimony. I heard about half of it.
    The point that you were making in your testimony is that in 
fact, enforcing the Clean Air Act vigorously not only saves 
lives but it also saves money. Everybody in this room is 
concerned about the escalating cost of health care in this 
country. We are concerned about asthma, we are concerned about 
cancer, we are concerned about many, many illnesses which cause 
human suffering, as well as great expense to our system.
    One of the funny things about Government, as everybody here 
knows, we could zero out your budget tomorrow and the end 
result would be that health care costs would explode. Or we can 
make sure you do your job well, and yet Medicare and Medicaid 
costs might go down.
    Could you give us some examples of how investing in 
protecting our environment, whether it is clean air or clean 
water, ends up saving taxpayers money by preventing illness?
    Ms. Jackson. Yes, Senator. Probably the biggest example is 
that air pollution is down over the 40 years of the Clean Air 
Act by I think 60 percent, almost 60 percent, while our GDP has 
gone up 207 percent. So what we have seen in economic studies, 
and not long ago we released some additional economic figures, 
is that the investment, and there are investments in pollution 
control technologies, whether it is air pollution or water 
pollution, not only those investments create jobs, because 
someone has to build that air pollution equipment or that water 
pollution equipment, but the savings in the health care arena 
are always greater when it comes to the Clean Air Act. Two to 
one is small. Usually we are talking 20 to 1, 30 to 1, we have 
seen as high as 40 to 1, $40 of health benefit for every $1 
spent on emissions control.
    Senator Sanders. So what you are arguing is that at a time 
when we worry about escalating health care costs, investing in 
clean air and clean water not only keeps people healthy, but it 
saves us health care dollars down the road.
    Ms. Jackson. Senator, I am simply saying it is preventive 
medicine.
    Senator Sanders. Right. I would agree with that strongly.
    Let me ask you a very simple but important question. We 
have heard today, and we hear repeatedly that global warming or 
the belief in global warming is kind of a fad, 40 years ago 
people were talking about global cooling, and there are 
differences of opinion, et cetera. Can you kind of bluntly 
share with us your assessment on where we stand in terms of the 
scientific community? I understand there are some differences 
of opinion. But in general, what is, to the best of your 
understanding, the scientific community saying about global 
warming?
    Ms. Jackson. My understanding is that there is overwhelming 
consensus amongst the scientific community that the climate is 
changing, and that it is caused, that man-made emissions of 
climate forcers, climate-changing gases, CO<INF>2</INF>, 
methane and other gases, are contributing significantly to the 
change in our climate.
    Senator Sanders. We talk in this Committee not only about 
environmental issues, but the impact of environmental 
regulation on the economy. It is an important issue. Some of my 
friends think that some of the regulations which you are 
obliged to enforce are ``job-killing'' or ``job-crushing.'' Can 
you say a few words about the economic benefits, economic 
benefits? I asked you a moment ago about the benefits in terms 
of trying to help us keep people healthy and raise the cost of 
health care. Talk for a moment about the economic benefits of 
the Clean Air Act, including innovation, manufacturing and 
export opportunities for American businesses.
    Ms. Jackson. The Clean Air Act, one of the unintended 
consequences is the growth of the American air pollution 
control industry. It is an American industry; we are the 
leaders in the world. It is a growing industry. Air pollution 
control equipment alone generated revenues of more than $18 
billion in 2007. It contributes to our trade surplus, because 
we export more of it than we need, so it contributes positively 
to our trade balance.
    Our exports of environmental technology to China grew by 
125 percent in the 2 years between 2002 and 2004. I can give 
you examples of individual rules. There is a recent study by 
Ceres and the University of Massachusetts that found that two 
of the updated Clean Air Act standards that EPA needs to 
establish for mercury and soot and smog will generate nearly 
$1.5 million jobs over 5 years. Because that is investment in 
our domestic economy. We are investing in clean air here at 
home to make our citizens healthier, and it creates jobs.
    Senator Sanders. So the bottom line is that investing in 
maintaining clean air and water creates jobs?
    Ms. Jackson. Yes, sir, just like investing in a road does. 
You are just investing in clean air and public health.
    Senator Sanders. OK. Madam Chair, thanks very much.
    Senator Boxer. Thanks, Senator Sanders.
    Senator Johanns.
    Senator Johanns. Thank you, Madam Chair.
    Administrator, recently the President, President Obama, 
with some degree of fanfare, announced a regulatory review 
process or framework that he was putting in place, I think in 
response to concerns by many in the business community about 
the over-regulation in the Administration. Are you subject to 
that?
    Ms. Jackson. Yes, sir.
    Senator Johanns. Tell me in what regard you would be 
subject to that. Is there a document you could give to the 
Committee that would show us what the new regimen will be at 
EPA?
    Ms. Jackson. Well, sir, there are two things. We are 
conducting a retrospective, a look-back review of our 
regulations. I don't have a document to give you yet. We are in 
the process of putting the work plan together for that at the 
request of the President and the White House. We will be 
producing that.
    Every regulation that we do is reviewed by us and then 
subsequently, by the White House Office of Management and 
Budget for compliance with the President's Executive Order.
    Senator Johanns. But let me ask, for example, the work you 
are doing on the climate change issues, would that now be 
reviewed? Are you going back to review all of that?
    Ms. Jackson. Our work plan is not done on the retrospective 
review. But we need to look at regulations that have been 
promulgated in the past by EPA. That is just what the Executive 
Order says, sir.
    Senator Johanns. So if somebody asks me, a constituent 
writes me a letter, I can quote you then in responding and 
saying that all regulations at the EPA are now under review, 
under the Presidential directive?
    Ms. Jackson. We are going to comply with the Executive 
Order in reviewing our regulations.
    Senator Johanns. OK. Just to get some numbers in the 
record, the House Bill, which has not been adopted on the 
Senate side, how much would that have reduced spending in the 
EPA?
    Ms. Jackson. I believe it is just over $3 billion, sir.
    Senator Johanns. Could you convert that to a percentage for 
me?
    Ms. Jackson. It is about 30 percent.
    Senator Johanns. About 30 percent. Now, would it be your 
testimony today that if that were adopted that more people 
would have health problems, more people would die, is that the 
case you are making to this Committee today?
    Ms. Jackson. My testimony today is about the President's 
budget and the need to make thoughtful cuts that still preserve 
public health. The CR itself has many provisions, including 
many riders, on EPA's authority as well. So I am not here to 
offer a detailed analysis of the CR, but rather, to explain the 
President's budget proposal.
    Senator Johanns. OK, but what I am trying to get to is, we 
have to decide. We have to make a thoughtful decision about 
what every budget should be. What I am trying to get a better 
understanding is, what is your testimony, if your budget is cut 
25 percent, does that have health risks to it? Will more people 
die? What exactly are you trying to tell us?
    Ms. Jackson. My testimony, sir, is that the President's 
proposed budget does make cuts, but it makes them with a 
thoughtfulness that is intended to ensure that we preserve the 
fundamental core programs that ensure clean air and clean water 
for Americans. So for example, we increase categorical grants 
to the States, out of recognition, as a former State 
commissioner, that State programs are 90 percent of the 
permitting and enforcement, the implementation of our Nation's 
environmental laws. We do not cut those programs.
    So there are many examples. But what I can talk about is 
the management recommendations we're making that I believe are 
quite thoughtful. They are not painless, they are cuts. But 
they are, in my opinion, thoughtful cuts.
    Senator Johanns. You talked about the increased costs 
relative to a hospital stay, and gosh, we all agree, if you go 
to a hospital, that costs money. The regulations that I have 
looked at, and I will just give you the regulatory effort, 
relative to farm dust, there is this regulation out there that 
we are trying to get changed that would cause containment for 
milk, which I think is just one of the most remarkable ones. I 
am saying that as gently as I can. It doesn't make any sense.
    But those cost money too, don't they?
    Ms. Jackson. We actually have an exemption proposed for 
milk containers. There is no regulation for farm dust. So yes, 
if there were regulations, I guess there would be. But we are 
in agreement that we don't need to regulate milk.
    Senator Johanns. Were you slamming the gavel?
    Senator Boxer. I think we are going to the next person. You 
can have another round. We are going to Senator Cardin. We only 
have 5 minutes each to go.
    Senator Johanns. Madam Chair, I don't mind that at all, as 
long as we all live by the same rule. If we are not living by 
the same rule, then an individual member is going to feel like 
they are being treated unfairly.
    Senator Boxer. Sometimes the Ranking Member and the Chair 
take a little bit more time. But generally we try to stick to 
it. I made a mistake, I didn't notice that Senator Whitehouse 
came back.
    Senator Whitehouse. Thank you.
    Administrator Jackson, I am a little bit concerned about 
the proposed budget effects on the State Revolving Funds, which 
look like they are up for drinking water and wastewater cuts of 
nearly a billion dollars. This is obviously an area in which we 
are way behind the curve. I think EPA has reported that we are 
$600 billion in infrastructure deficit for clean water and 
wastewater treatment. In Rhode Island, our list of water 
infrastructure projects is over $1.5 billion and our Clean 
Water Finance Agency in 2010 had a lending capacity of just $88 
million.
    We do take the support that we get to the State Revolving 
Fund, and we do leverage it with private borrowing. Tony 
Simeone, who runs the Rhode Island Clean Water Finance Agency, 
is kind of a magician at making more work and water 
infrastructure and jobs and clean effects out of the money that 
he gets. I would just urge you to reconsider the value, 
particularly the leverage value, of these investments.
    I understand that some of my colleagues take exception to 
our use of the term investment, and they just think that 
everything is spending, spending, spending. But it is pretty 
clear that our clean water infrastructure and our wastewater 
infrastructure is vitally important to all of us. When we are 
this far behind in terms of where we should be, I think this 
particular definition of infrastructure is pretty hard to 
debate. This goes back to the Romans.
    So I would hope that as we go forward, you might be willing 
to reconsider that, based on the leverage and jobs effects, in 
addition to the health effects of having better clean water and 
wastewater infrastructure. Perhaps you would like to respond.
    Ms. Jackson. My only response, sir, is that yes, it was a 
tough choice to look at the revolving funds and propose a cut 
there. The only solace we had was that we had put and seen a 
lot of money hit the streets through the American Recovery and 
Reinvestment Act. There was $6 billion there in total, I 
believe, for water and wastewater. And 99 percent of it is 
obligated. I think a large percentage of it has already been 
spent. But there is a significant percentage that hasn't. So 
one of the things we thought was that we would certainly like 
to spend money there, but that we could spend what we had.
    I just want to point out, I know the Ranking Member has 
left, but the last Bush SRF was $1.5 billion. This is $2.5 
billion proposed. So it is not all the needs, certainly, but 
also remember, that this is a revolving fund, so money does 
come back as it is paid back into the fund.
    Senator Whitehouse. I would love to get an update from you 
also on the transport rule. Rhode Island is a very important 
beneficiary of that rule. We are a non-attainment State. It is 
not because of Rhode Island release that we are not an 
attainment State, it is because we are downwind of other States 
that decided that it was really good public policy on their 
part to build really high smokestacks, inject their pollution 
up into the high atmosphere, and let it rain down on my Rhode 
Island constituents.
    There is not much I can do about it. As the Attorney 
General, I sued them. That lawsuit is still kicking around, as 
best I can tell. But you have the ability, with the regulatory 
point of view, to force the protection of far-away little lungs 
and older lungs, when the local economy thinks it is a really 
good idea to keep burning coal, project the waste up so it 
doesn't--actually, there are places where they are burning this 
stuff that are in attainment, because they have done such a 
good job of putting it up, so that it falls downwind onto Rhode 
Island.
    But I very much hope that we come to a day soon when on a 
bright, clear, summer day, we are not hearing on the radio that 
today is a bad air day in Rhode Island, and infants and seniors 
should stay home.
    Ms. Jackson. Thank you. It is projected for finalization in 
June, Senator.
    Senator Whitehouse. Great, thank you.
    Senator Boxer. Thank you, Senator.
    Now we go to Senator Boozman.
    Senator Boozman. Thank you.
    Thank you for being here, Ms. Jackson. There is concern 
about statements that have been made about using the Chesapeake 
Bay TMDL and the Florida numeric nutrient criteria in other 
areas of the country. Both of those decisions are under fierce 
scrutiny. The numeric nutrient criteria in Florida, some 
ecologists believe that perhaps there is actually harm being 
done to the ecosystem as a result of that.
    In the budget, you are requesting $6.6 million to address 
nutrient loading in the Mississippi River and Gulf of Mexico, 
specifically targeting non-point pollution. I also understand 
that you have a request for a computer model of loadings for 
the Mississippi River.
    I guess the question is, are we laying the groundwork, are 
you laying the groundwork for a Gulf of Mexico TMDL with these 
actions?
    Ms. Jackson. The TMDL for the Chesapeake was a result of 
litigation. The work in Florida was the result of litigation, 
actually decided initially by the Bush administration before 
they left. The work in the Mississippi River Basin, which of 
course is huge, spans dozens of States, is work to address 
hypoxia in a cooperative manner through working with the 
States. Those are State programs for the most part, and I 
firmly believe that States are in the best position to address 
phosphorus and nitrogen pollution.
    Senator Boozman. So there is not current litigation going 
on in that regard, in that area?
    Ms. Jackson. No, sir, there isn't.
    Senator Boozman. So it is correct to say, then, that you 
are not pursuing TMDL in that area?
    Ms. Jackson. I think as a statement of fact, we do not 
have, I will double check it, but I want to make sure I give 
you an accurate answer, Senator. But I don't believe we are 
planning to do a TMDL specifically in the Mississippi watershed 
in the near future. But I will double check that for the 
record.
    Senator Boozman. That would be very helpful. These are 
important issues. The cost is tremendous. Much of it seems to 
be an unfunded mandate. It really does impact on the people 
near the systems. In that area, with it being such a huge area, 
would impact a tremendous area. So thank you very much.
    Ms. Jackson. Thank you. Just to point out, I do want to 
make clear that TMDLs or standards can be set by the States, 
and in fact are required by the Clean Water Act.
    Senator Boozman. They can be, and yet I know in Arkansas, 
we have instances where the State of Arkansas has wished for a 
certain standard, along with the State of Missouri. They were 
in complete agreement. You have chosen to overrule that and put 
your particular standard in. So they can do that, but you all 
appear to overrule that all the time. So essentially, it is 
your standard.
    Ms. Jackson. I will check on the particulars, sir. 
Obviously, water flows. So what we are trying to do down in the 
Gulf of Mexico, by the time the water even reaches your State, 
but goes further down into the watershed, to assure that there 
is fairness, that no one has to bear the burden of someone 
upstream sending their pollution down and then it affecting 
users further downstream, who essentially don't have any 
headroom, because the water that reaches them already has a 
tremendous load.
    So there is a role, in my mind, for the EPA to play because 
it is a regional issue. But we have to lean heavily on the 
experts at the State.
    Senator Boozman. Thank you.
    Senator Boxer. Thank you. Thank you for that question, 
because I thought that was important and I learned a lot. So 
thank you.
    Now we are going to turn to Senator Cardin. If there is no 
Republican coming back, we will go then to Senator Lautenberg.
    Senator Cardin. I am going to followup on this exchange, 
because I really do think that the House-passed budget is 
providing unfunded requirements on our States by repealing the 
Federal Government's support for programs that we were 
participating with the States.
    So I want to go through this a little bit further, because 
in regard to the Chesapeake Bay, the TMDL of course is 
established under court, and the States are going to still be 
going forward with their TMDLs regardless of what the House 
bill provides, if it were to become law. The only thing the 
States are going to lose is your help. Am I reading that right?
    Ms. Jackson. Our help, because of the cuts to the 
categorical grants, I think they lose a lot of resources as 
well.
    Senator Cardin. That is a good point. Because we look at 
the EPA budget, and we say, gee, OK, we are going to cut these 
Federal programs. I started in a State, and I really do believe 
in federalism. Can you just go into a little more detail as to 
a 30 percent cut, and I know you are here to talk about the 
President's numbers, and not what the House budget is all about 
. But if there is a 30 percent cut, it is going to affect 
moneys coming to our States.
    Ms. Jackson. Yes, sir. I am trying to get--the categorical 
grants are cut by, I think, $1 billion it looks like. Is that 
right?
    Ms. Bennett. No, that is what is proposed.
    Ms. Jackson. Excuse me. Yes, so I have the numbers 
somewhere, I will get them for you. But there is a significant 
cut to the State categorical grant programs, more than we are 
certainly proposing to increase them in 2012.
    Senator Cardin. Just so we understand what we are doing 
here, can you tell us the type of programs, the type of grants 
that the States are going to lose, or could lose as a result of 
the cut? That type of a cut, if it were implemented by 
Congress.
    Ms. Jackson. These are the grants that most States use to 
pay the salaries of the people who write air permits and water 
permits, who enforce the Clean Air Act, who enforce the Clean 
Water Act, who enforce the Safe Drinking Water Act. They are on 
the front lines of implementing those laws, making those laws 
more than words on paper.
    Senator Cardin. Of course those laws are important, I am 
not going to back over the exchange you have had with other 
Committee members for public health and for clean air and clean 
water and all the above. The States are still going to be on 
the hook to get it done. They are just going to have to pay for 
it with their dime without having the Federal Government 
participate.
    Ms. Jackson. Yes, sir, there just won't be as much support 
to enforce and implement our Nation's environmental laws. I 
think probably common sense would say they won't be able to do 
as much.
    Senator Cardin. So they will get sued, and the courts will 
be active again. The point that my colleague just mentioned, 
the States are going to be in the worst position here, because 
they are going to be, we look to the States for their plans. 
They are going to be held accountable under the laws that we 
passed, as they should be, because we want to protect our 
water. We want to make sure our communities don't have streams 
that catch on fire, or we don't want to live in neighborhoods 
where we have high cancer rates, because of the pollutants that 
are being put into the water.
    But other than, I am always amazed at my friends who talk 
about unfunded mandates. But then when it comes to budgets for 
the Federal Government to live up to its part of the deal, they 
seem to lose their passion for the Federal Government living up 
to its share.
    Ms. Jackson. The only other thing I would offer, sir, is 
that these are incredibly successful programs. We still have 
environmental challenges in this country. We have heard about 
many of them today during the hearing. But these are effective 
programs. The Clean Air Act, again, 30 to 40 to 1, the Clean 
Water Act has made numerous streams fishable or swimmable 
again. The work and investments in the Chesapeake Bay are----
    Senator Cardin. I was hoping you were going to mention the 
Chesapeake Bay. I was getting a little anxious there.
    But you have a modest increase in the Chesapeake Bay 
program, I think you take it up to $60 million or something, 
no, $65 million. Your budget takes the Chesapeake Bay program 
up to $65 million.
    The House-passed budget would reduce that by about $25 
million. Now, I can tell you what is going to happen. That 
means that the grants that go to the six States will be 
reduced. The grants that go to the organizations, the private 
organizations that are partners with us in cleaning up the Bay, 
that do the shoreline erosion protection programs, that do the 
school programs where school children literally go out there 
and not only cleanup the Bay, but understand what it is all 
about. It is those programs that we are going to lose. It is 
going to be more difficult for us to meet the TMDLs that have 
been established by the courts if we don't have the resources 
coming in in partnership with the State and private sector. It 
is just going to make it more difficult for us to meet those 
standards.
    Ms. Jackson. That is right, Senator. Remember, some of that 
goes to, it is leveraged by work and money with USDA to help 
the agricultural sector, who are vital partners in this work.
    Senator Cardin. The bottom line, to the people of Maryland 
and the surrounding States, means that there is a greater risk 
that will go back to restrictions on the rockfish, greater 
likelihood we will have continued problems with oysters. It 
will hurt our economy. It will hurt the beach communities, 
where we have to close beaches on more and more days. That is 
what is at stake here. So that is why we do get a little bit 
emotional about what is being done in the other body.
    I thank you very much for your commitment to this area.
    Senator Boxer. Thank you, Senator.
    Senator Lautenberg.
    Senator Lautenberg. Thanks very much, Madam Chairman, and 
welcome, Administrator Jackson.
    I just want to make a short statement, if I may, Madam 
Chair, including my time.
    Senator Boxer. Yes.

 STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. Politicians talk a lot about how 
Congress should be more like the everyday Americans, who sit at 
their kitchen tables and try to plan their household budgets, 
and crunching the numbers, see what they can and can't afford. 
But no American would try to balance their family's budget by 
cutting out money for batteries for a hallway smoke detector, 
or putting off a set of new brakes for the family car.
    It would be just as reckless for Congress to sacrifice the 
public's health and safety in the name of fiscal austerity. Yet 
this is precisely what our colleagues on the other side of the 
aisle have proposed. The House Republicans want to slash 
funding for environmental protection by nearly one-third, 
stripping this vital agency of its ability to enforce laws and 
keep the air our children breathe and the water they drink 
clean.
    If we really want to reduce the tax burden on hard-working 
Americans, we ought to make the polluting industries pay to 
clean up the messes they make. That was the standard that was 
in play a few years ago, right? It worked well. Right now, 
taxpayers spend more than a billion dollars every year to clean 
up neighborhoods made toxic by irresponsible industries. It is 
not fair.
    So today, I, with several of my colleagues as co-sponsors, 
Senators Whitehouse, Cardin, Menendez, Feinstein, Murray and 
Senator Merkley, this legislation would reinstate the fee on 
chemical and oil companies to bond the cleanup of Superfund 
sites. I am pleased that President Obama included polluter pays 
in his proposed EPA budget.
    But the House Republicans would rather let polluters off 
the hook altogether. I don't know how conscience permits one to 
say, well, we can't afford clean air, we can't afford clean 
water. Look at their children in the face and say, oh, I am 
sorry, I would like for you to be able to drink that water, but 
maybe if you do it with a sieve or something like that, you 
will be all right. That is how nonsensical that sound to me.
    So for example, the House Republicans proposed subverting 
the EPA's ability to carry out the Clean Air Act. Since it has 
become law in 1970, the Clean Air Act has protected our health 
and the environment from dangerous, toxic air pollution. In 
2010, it prevented more than 160,000 premature deaths and more 
than 1.7 million child respiratory illnesses. It is fantastic. 
The Clean Air Act's economic benefits are also clear. When air 
pollution is severe, health care costs soar and productivity 
plunges. Businesses know employees who can't breathe are 
employees who can't work.
    So gutting the Clean Air Act will do nothing to help our 
economic recovery, and nothing to close our budget deficit. I 
agree, we have to fix the Nation's budget challenges. But no 
American would try to balance their household budget by 
skimping on their kids' safety. Just the same, Congress should 
not be putting austerity above public health.
    I will make a comment about the budgetary situation that we 
find ourselves in. Every financial statement has two elements. 
One, there are costs. There are costs for operating, for 
material. The other is revenues. I for one would have to pay 
more tax if we eliminated the tax cuts that were done in the 
Bush years and have continued. I will tell you, if I could put 
another firehouse in my neighborhood or another Clean Water 
standard that my kids can't drink now from the fountain, we buy 
bottled water like so many people, if we could do that, I would 
gladly pay the tax. That is like an investment. When I ran a 
business, we put more money out at times than we had in hand. 
But we knew that we were doing the right thing.
    That is one thing, I wish, Madam Chairman, I know how 
desperately you want to do the right thing and how stymying it 
is to hear, oh, we can't afford it. We can't afford the toll on 
our children that it will take if we don't get on with this. I 
think those who created the pollution should pay for it. Thank 
you very much.
    Senator Boxer. Thank you for your statement.
    Senator Boozman, do you want to make your concluding 
remarks, and then I will see if the Senator wants a second 
round. I know Senator Carper has sent me some questions I am 
going to ask you as well.
    Senator Boozman. No. I have a question that I would like to 
submit for the record, and if you would respond, that would be 
good. We appreciate you, Ms. Jackson, and Ms. Bennett being 
here. We appreciate your testimony.
    Senator Boxer. Thank you so much, Senator.
    Senator Whitehouse, why don't you take your time, and then 
I will do some questions from Senator Carper.
    Senator Whitehouse. Thanks. I just wanted to add one thing, 
because in this room, in particular, we hear a lot of things 
said about the extent and the effect of carbon pollution in our 
environment. It is sort of an odd chamber to be in, because you 
can get into utility boardrooms, and they get it. You can go to 
the American people, they clearly get it. You can go to the 
scientific community, and they are appalled that we haven't 
taken action more readily, because the scientific record is so 
compelling.
    Yet, other than the ExxonMobil boardroom, I can't think of 
a place other than this building in Washington where we get 
more confusion sown about where we are. Some of the stuff just, 
as I understand it, just isn't very debatable or negotiable.
    Over the last 800,000 years, 8,000 centuries, the 
atmosphere has varied fairly steadily between containing 170 
and 300 parts per mission of carbon dioxide. That is not 
theory, that is measurement. So I don't think there is any 
responsible debate about that point. In 1863, the Irish 
scientist John Tyndall determined that carbon dioxide in the 
atmosphere traps more heat as the concentration goes up. That 
is textbook science, it has been textbook science for a 
century. That is not in dispute either.
    Since the Industrial Revolution, industrialized societies 
have been pumping carbon into the atmosphere at astonishing 
rates. We are up to seven to eight gigatons in the last decade 
annually. A gigaton is a billion tons. I don't think that 
figure is in any serious dispute.
    So the conclusion that when you release multiple gigatons 
of carbon into the atmosphere every year, it is going to go up, 
is not a very challenging theory to take on board. Put more in, 
find more there. It is really not that complicated. You draw 
conclusions from that, when you are adding a lot more, the 
concentration would go up. That is something that we also don't 
theorize about, we go out and we measure it. The measure now is 
that we are over 390 parts per million, which is outside of a 
bandwidth that we have lived in for 8,000 centuries.
    That is a pretty big chatter strip to go driving across and 
pretend that everything is going to be just OK and you don't 
have to worry. It is pretty easy to do trajectories, too, that 
is not complicated. We do trajectories all the time. You can 
plot where we are going on a graph and it takes you to 688 
parts per million in the year 2095 and over 1,000 parts per 
million in the year 2195. Because some of this is irrecoverable 
once it gets started, that is a matter of some concern for us 
now, because those are boundaries we haven't been outside, not 
in 800,000 years, but in millions and millions of years.
    We are taking a huge bet on what happens to our species and 
to our planet. Very cool-headed industries, like the property 
casualty insurance industry are making huge bets based on this 
science every day.
    So I just want to try to kind of bring a moment of reality 
to this extraordinarily peculiar room in which this remains the 
subject of debate. I know that there are big industries out 
there that don't want to hear it. I know that big industries 
can have a lot of sway in this particular institution. I think 
with some of the people around here, frankly, Galileo would not 
have a shot. He had a similar predicament. He had science and 
he had pressure. He yielded to pressure, although he is alleged 
to have whispered ``I recant, but the plants stay their 
courses.''
    I don't know whether that is true or not, but don't recant. 
Because the planets will stay their courses. These rules are 
not rules that we have made up. They are laws of science, they 
are the rules by which our world operates. There comes a point 
where denying them is more than just irresponsible.
    Ms. Jackson. Senator, can I just respond a bit, maybe to 
give you a little bit of comfort? I know you mentioned 
ExxonMobil, but I saw a piece of good news yesterday. Even 
Rupert Murdock and his news corps, they own Fox News, they own, 
I believe, the Wall Street Journal and others, entities that 
sometimes have a field day with my agency or the issue of 
climate change. He put out an announcement that they have 
become carbon-neutral across their global operations, and that 
their projects pay for themselves in less than 2 years on 
average, that they are lighting retrofits and PC shutdowns to 
systemic changes like moving to video-conferencing and carbon 
foot-printing.
    So I do believe, that as you mentioned, this is good for 
business, good for our future, and very much doable through a 
simple desire to do it. So thank you.
    Senator Whitehouse. Indeed, it is actually an economic win, 
because it allows us to compete effectively in hugely 
developing, rapidly growing industries that we would otherwise 
fall behind in and lose jobs and economic position to. So thank 
you.
    Senator Boxer. Thank you very much.
    Just tagging on to that thought, isn't it true--thank you, 
Senator Whitehouse--that carbon pollution comes out of the same 
stack as other forms of air pollution? So when you go to reduce 
carbon, you are also reducing smog-forming pollution, toxic 
soot? My understanding is, contaminants such as mercury will be 
reduced, lead and other heavy metals. We know those pollutants 
harm the development of the nervous system, including the 
development of the brain. Infants and children are especially 
at risk.
    So it isn't as if, if we are going after carbon pollution 
and we are doing it in the right way and we are bringing it 
down, aren't we also making people healthier, because of all 
those co-pollutants that are in the air with the carbon?
    Ms. Jackson. Many of the same sources, whether it is dirty 
vehicles, which we are working to clean up under the 
President's Clean Car program, or power plants emit carbon 
pollution, but they also emit smog, soot, mercury.
    Senator Boxer. I think that is really important. It is one 
of the reasons, just in my home State, I will tell on my 
friend, we had a really interesting referendum in California, 
Prop 23. It said very simply, we should delay our carbon 
pollution reduction effort until our economy improves. We have 
12.4 percent unemployment. Now, this, California is considered 
a blue State, it is really a purple State. We have less than 50 
percent Democrats, less than 50 percent Republicans. We have a 
lot of Independent voters.
    The oil companies, Texas oil companies, came in and they 
spent millions of dollars, versus the American Lung 
Association, basically that is what it was. It was the most 
extraordinary thing, it was 60-40, actually 61 percent said 
let's not delay. Now, mind you, all it said was, delay until 
the unemployment rate goes down to 5 percent. So it is not that 
they canceled it, they couldn't win.
    So I think the issue that I am trying to say to my friends, 
and I respect each and every one of them, if you look at the 
American Lung Association's nationwide polling, done by a 
Republican and Democratic polling firm, we should be united in 
this. I am not saying we should agree with every single comma 
and quotation mark. But in general, we should be united, if we 
represent the American people.
    I also wanted to correct something Senator Inhofe said, and 
put into the record the actual vote on the Lieberman-Warner. He 
said it got 30 some votes. It actually--we were 6 votes short 
of 60. We had, I forget exactly how many were there--48 were 
there, and we had letters from the others, like Senator McCain, 
who was out campaigning, that they would have voted for 
cloture.
    So the high water mark was 54 votes. Not enough. We had 
nine Republicans say at that time they were for a climate 
change bill.
    Now, it has eroded, there is no doubt about it, there is no 
question about it. But that doesn't change what you need to do, 
Madam Administrator. You need to follow the law. I hope we will 
support you.
    I wanted to just pose these questions, very important 
questions, and I agree with the thrust of these comments, from 
Senator Carper. He says--can you please keep your answers 
concise? First, he says, it is his understanding that the 
diesel engine standards adopted by the agency in 2007 only 
affect new engines, and they have no impact on the existing 
fleet. Is that correct?
    Ms. Jackson. That is correct.
    Senator Boxer. Then he says, I understand that there are 
about 11 million of existing diesel engines in use, like in the 
school buses that take our kids to schools. Some of these 
engines and vehicles can last for decades. Is he correct in 
that understanding as well?
    Ms. Jackson. That is correct.
    Senator Boxer. He says, his understanding is that dirty 
diesel exhaust is deadly. In fact, a person in this country is 
more likely to be killed by diesel soot than by a firearm or a 
drunk driver. It is also his understanding that we have 
American technology that can retrofit or replace dirty diesel 
engines. That technology reduces diesel emissions by 90 
percent. Is he correct on the diesel technology and the diesel 
public health concerns?
    Ms. Jackson. Yes, Chairman. I can't confirm the comparison, 
but certainly they are deadly emissions, and they do kill.
    Senator Boxer. He says, finally, Administrator Jackson, if 
there are millions of existing diesel engines not affected by 
the 2007 rule, these engines can last for decades, spewing 
deadly emissions. Would you agree with me that there are 
tremendous remaining opportunities to provide for diesel 
emission reductions under DERA?
    Ms. Jackson. Yes, there are tremendous opportunities 
remaining.
    Senator Boxer. OK. I ask unanimous consent to enter into 
the record a letter from 15 organizations representing local 
water agencies, State officials, conservation and environmental 
organizations, as well as organizations representing the 
construction and engineering trades, that call on Congress to 
reject drastic spending cuts to EPA wastewater and water 
quality programs that were included in H.R. 1, which is the 
House Continuing Resolution that we are looking at at the 
moment. I wanted to make sure we got those into the record. 
Without objection, Water Environment Foundation, the National 
Association of Clean Water Agencies, Associated General 
Contractors of America, American Public Works Association, 
National Association of Clean Water Agencies, Association of 
Metropolitan Water Agencies, President of American Rivers, 
President and CEO of CMAA, American Society of Civil Engineers, 
Vice President, Industry and Government Affairs at the Vinyl 
Institute, American Sports Fishing Association, California 
Association of Sanitation Agencies, Chesapeake Bay Foundation, 
Association of California Water Agencies, Association of State 
Drinking Water Administrators, Council of Infrastructure 
Financing Authorities.
    [The referenced information was not available at time of 
print.]
    Senator Boxer. That is a very powerful endorsement of your 
work. I wanted to include it.
    Anything else, Senator Boozman?
    Senator Boozman. Yes, ma'am. The only thing I would like to 
do is enter a letter to you from 10 of your colleagues that was 
dated June 6th, concerning some of their concerns.
    [The referenced information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boozman. The other thing is, you mentioned the 
referendum that you had concerning that. I think that is the 
correct way to do things. We can debate the merits of climate 
change and things like that. But my concern and the concern of 
many others is that the agency, this agency, other agencies, 
are trying to do things that they don't have the statutory 
authority to do. It has been pretty clear, I think, serving in 
the House and now over here, that in the past, the cap-and-
trade legislation, the rewrite of the Clean Water Act, it has 
been pretty clear that Congress, the majority of Congress has 
not gone along with that.
    I would say that if we try and do that through a regulatory 
approach that that is wrong. I think most Members of Congress 
would agree with that.
    Senator Boxer. Well, Senator, let me respond to you, 
because you are right in the way you are representing the views 
of the current Senate. There is no question that the stated 
view is, Congress should act on a specific bill on carbon 
pollution. Here is the problem. The same people who say 
Congress should act to control carbon won't support any bill to 
do it.
    So we are left with the Clean Air Act. Now, as you well 
know, I am sure, because you were over there in the House, the 
Bush administration stopped any and all forward motion on 
carbon pollution reduction for the entire time they were there. 
A lawsuit that was filed wound its way to the Supreme Court, 
and the Supreme Court decided the issue. The Bush 
administration argued carbon pollution is not covered under the 
Clean Air Act.
    In a very clear-cut decision, and the words of which are 
seared in my memory, they state, that is absolutely untrue, 
that in fact, and you can just read the Clean Air Act yourself 
and see it, it says that the agency, they can act to protect 
the public from all pollution, and these are the words in the 
Clean Air Act, including pollution related to climate change.
    So I wasn't surprised that the Supreme Court found in favor 
of that. So your role is to follow the law.
    So let me just get this on the record. I think the Senator 
is being very straightforward. There are people who think EPA 
is not following the law. So I want to get you on the record. 
My interpretation of what the Supreme Court said, in a very 
clear decision, is once an endangerment finding is made, and 
that finding was made, based on most of the work done in the 
Bush administration, once the endangerment finding was made and 
the decision was made that carbon pollution is dangerous to the 
public, do you not have the responsibility to act to reduce 
carbon pollution?
    Ms. Jackson. Yes, Chairman. Once an endangerment finding is 
made, EPA must, must, the statute is clear, the word is must. 
Just to go one step further, for the Ranking Member, the 
decision also said that EPA could not simply choose not to deal 
with the issue of endangerment, that we couldn't be arbitrary 
and put the issue to the side. We had to make a scientific 
finding one way on the issue of that of greenhouse gas 
pollution. So that is the endangerment finding.
    We are not alone in this. There was some interesting 
correspondence that came out from the past Administration, the 
person who had my job before me, who reached the same 
scientific conclusion and said that there was simply no way to 
deny the fact that greenhouse gases endanger public health and 
welfare.
    Senator Boxer. I would ask unanimous consent to place into 
the record the exact words of the Court. They said, ``Because 
greenhouses gases fit well within the Clean Air Act's capacious 
definition of air pollutant, we hold that EPA has the statutory 
authority to regulate the emission of such gases.''
    So all I ask is that you follow the law. I think that there 
will be attempts to tie your hands. It is very open, it is not, 
you know, in every way. To me, to me, it is a nightmare. 
Because there are real life consequences of these things. All 
you have to do is read the endangerment finding. Put that 
aside, all you have to do is read what happens when our kids in 
utero get exposed to mercury, or when our elderly and all of 
our families get exposed to the fine particulate matter. This 
is serious business.
    That is why 70 percent of the people or more support the 
EPA. That is what the question was: do you support the 
Environmental Protection Agency's role in going after this 
pollution. It was done in a fair and square way, and 70 
percent.
    So again, it hurts my heart that we have to have these 
arguments every time. But that doesn't dissuade me, as Chairman 
of this Committee, we are going to keep on doing it.
    I just want to say thank you to you, Administrator Jackson. 
You are patient, you are caring, you are very forthcoming to 
both sides. I just think you are a terrific Administrator. 
Frankly, I think most of us agree with that, regardless of our 
party.
    So thank you so much for this. We stand adjourned.
    [Whereupon, at 4:20 p.m., the committee was adjourned.]
    [Additional statement submitted for the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
